TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                      Weaknesses Continue to Exist in the
                     Controls Over Investigative Equipment



                                        January 21, 2011

                              Reference Number: 2011-30-008




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

    Redaction Legend:
    1 = Tax Return/Return Information
     3(a) = Identifying Information


 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  HIGHLIGHTS


WEAKNESSES CONTINUE TO EXIST IN                      to support investigative equipment disposal
THE CONTROLS OVER INVESTIGATIVE                      transactions, and did not review user
EQUIPMENT                                            permissions for its management information
                                                     system.
                                                     TIGTA also determined that the CI Division’s
Highlights                                           management information system is inaccurate
                                                     and incomplete, and that the CI Division needs
Final Report issued on January 21, 2011              to improve the physical security controls over its
                                                     investigative equipment to reduce the risk of
Highlights of Reference Number: 2011-30-008          unauthorized access.
to the Internal Revenue Service Chief, Criminal
Investigation Division.                              WHAT TIGTA RECOMMENDED
IMPACT ON TAXPAYERS                                  To improve controls over its investigative
                                                     equipment, TIGTA recommended that the Chief,
The Criminal Investigation (CI) Division             CI Division, finalize the Internal Revenue Manual
has responsibility for controlling almost            and the Criminal Investigation Equipment
44,000 pieces of investigative equipment             Management Procedures; modify the reports
costing nearly $126 million to accomplish its        generated from the management information
investigative and enforcement functions. Our         system to facilitate the annual inventory; and
review determined that weaknesses in the             ensure the Director, Security and Technical
controls over investigative equipment continue       Operations, and Director, Field Operations,
to exist. The risk of loss, theft, and spending      review disposal documentation for completeness
funds to purchase unnecessary investigative          and reject the documentation when it is
equipment can decrease the public’s                  incomplete. TIGTA also made several
confidence in the Internal Revenue Service’s         recommendations that will help the CI Division
(IRS) ability to enforce tax laws in a fair,         ensure the data captured in its management
equitable, and consistent manner.                    information system are complete and accurate
                                                     and that its assets are adequately safeguarded
WHY TIGTA DID THE AUDIT                              against theft or loss.
In September 2005, TIGTA issued a report             IRS management agreed with five
citing weaknesses in the CI Division’s controls      recommendations, partially agreed with two
that left investigative equipment vulnerable to      recommendations, and disagreed with the
loss. The objective of TIGTA’s current review        remaining recommendation. CI Division field
was to determine whether controls and                offices currently review all investigative
procedures were effective to ensure                  equipment disposal documentation and conduct
investigative equipment is adequately                reviews of user permissions in the Criminal
safeguarded against waste and loss. In               Investigation Management Information System;
addition, TIGTA followed up to determine             however, the IRS did not agree that national
whether the agreed to corrective actions from        office oversight was warranted. Also, the IRS
our prior report were implemented.                   did not agree to establish an annual functional
WHAT TIGTA FOUND                                     security review of investigative equipment and
                                                     weapons storage areas. TIGTA maintains that
Although the CI Division took steps to               current procedures for disposing of investigative
strengthen controls over its investigative           equipment and completing periodic reviews of
equipment, TIGTA identified repeat findings and      access permissions to the Criminal Investigation
weaknesses that continue to exist because the        Management Information System and storage
CI Division did not take or fully implement all      areas are not adequate and need strengthening.
agreed to actions from our prior report. Results     When properly conducted, functional security
showed that CI Division personnel did not            reviews will help ensure security standards are
always properly conduct the annual physical          met.
verifications, maintain complete documentation
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           January 21, 2011


 MEMORANDUM FOR CHIEF, CRIMINAL INVESTIGATION DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Weaknesses Continue to Exist in the Controls
                             Over Investigative Equipment (Audit # 201030008)

 This report presents the results of our review to determine whether controls and procedures are
 effective to ensure investigative equipment is adequately safeguarded against waste and loss. In
 addition, we determined whether the agreed to corrective actions from our prior report were
 implemented. This audit was included in our Fiscal Year 2010 Annual Audit Plan and addresses
 the major management challenge of Leveraging Data to Improve Program Effectiveness and
 Reduce Costs.
 Management’s complete response to the draft report is included as Appendix VII.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations. Please contact me at (202) 622-6510 if you have questions or
 Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
 Operations), at (202) 622-8510.
                                 Weaknesses Continue to Exist in the Controls Over
                                            Investigative Equipment




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          While Some Controls Over Investigative Equipment Have Improved
          Since Our Last Review, Repeat Findings Still Exist .................................... Page 4
          Weaknesses Continue to Create an Environment Where Investigative
          Equipment Is Vulnerable to Loss .................................................................. Page 5
                    Recommendation 1:........................................................ Page 8

                    Recommendations 2 and 3: .............................................. Page 9

                    Recommendation 4:........................................................ Page 10

          The Criminal Investigation Management Information System Is
          Inaccurate and Incomplete ............................................................................ Page 10
                    Recommendations 5 and 6: .............................................. Page 12

          Physical Security Controls Need to Be Reemphasized................................. Page 13
                    Recommendation 7:........................................................ Page 13

                    Recommendation 8:........................................................ Page 14


Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology ....................... Page 15
          Appendix II – Major Contributors to This Report ........................................ Page 18
          Appendix III – Report Distribution List ....................................................... Page 19
          Appendix IV – Outcome Measures............................................................... Page 20
          Appendix V – Status of Recommendations From the September 2005
          Treasury Inspector General for Tax Administration Report ......................... Page 22
          Appendix VI – Glossary of Terms ................................................................ Page 25
          Appendix VII – Management’s Response to the Draft Report ..................... Page 26
        Weaknesses Continue to Exist in the Controls Over
                   Investigative Equipment




                 Abbreviations

CI         Criminal Investigation
CIMIS      Criminal Investigation Management Information System
FY         Fiscal Year
HQ         Headquarters
STO        Security and Technical Operations
TIGTA      Treasury Inspector General for Tax Administration
                              Weaknesses Continue to Exist in the Controls Over
                                         Investigative Equipment




                                               Background

The Criminal Investigation (CI) Division’s primary mission is to serve the American public by
investigating potential criminal violations of the Internal Revenue Code1 and related financial
crimes in a manner that fosters confidence in the tax system and compliance with the law. To
accomplish its mission, CI Division special agents use various types of investigative equipment.
Special agents also use accessories and supplies that include cellular telephones, global
positioning systems, binoculars, camera lenses, recorders, and transcribers. As of
October 15, 2009, the CI Division had responsibility for controlling almost 44,000 pieces of
investigative equipment costing nearly $126 million. Figure 1 represents the total assets and
total acquisition cost for the investigative equipment categories recorded in the Criminal
Investigation Management Information System (CIMIS).
                     Figure 1: CI Division’s Investigative Equipment Inventory
                                                            Number of   Acquisition
                             Category                         Items        Cost
             Motor Vehicle                                      2,883     $61,995,084
             Radio                                              9,764     $37,120,281
             Video                                              3,061      $7,016,287
             Audio                                              2,507      $5,688,815
             Miscellaneous Investigative Equipment              7,268      $4,481,910
             Weapon                                             5,728      $2,131,240
             Training                                           1,741      $2,023,925
             Photographic                                       1,664      $1,574,234
             Tracking                                           2,517      $1,297,540
             Telecommunication                                    334        $970,196
             Optical                                              214        $641,295
             Microfilm                                             99        $255,816
             Enforcement Badge                                  6,158        $199,533
             Shop                                                  27        $107,264
              Total Investigative Equipment                    43,965    $125,503,420
           Source: Our analysis of the CIMIS as of October 15, 2009.




1
    See Appendix VI for a glossary of terms.
                                                                                          Page 1
                            Weaknesses Continue to Exist in the Controls Over
                                       Investigative Equipment



The CI Division’s Security and Technical Operations (STO) section manages investigative
equipment by determining needs and assisting with distribution of the investigative equipment to
the field offices. In addition, the STO section oversees the annual inventory of investigative
equipment and establishes property management policy. The Criminal Investigation Equipment
Management Procedures provide equipment coordinators with uniform procedures for managing
and accounting for investigative equipment and using the CIMIS for controlling investigative
equipment. For example, the Procedures require that investigative equipment and investigative
accessories and supplies, valued at $500 or more, be entered into the CIMIS.2 Those items
valued less than $500 are considered disposable items and are not controlled in the CIMIS. The
exceptions are weapons, pocket commissions, enforcement badges, belt badges, body armor, and
property that is susceptible to being converted to personal use such as digital cameras, video
recorders, and global positioning systems units.
This review is a followup to the Fiscal Year (FY) 2005 audit in which we determined that
internal control weaknesses created an environment susceptible to the loss of investigative
equipment.3 We made 14 recommendations4 for improvement that the Chief, CI Division, agreed
to implement. During the planning for this review, STO section management advised us that CI
Division personnel identified significant discrepancies during the 2008 annual investigative
equipment inventory of CI Division Headquarters (HQ). As a result, CI Division management
requested the completion of an internal, independent review and reconciliation. The independent
review team issued a report in March 2009 which discussed how the team resolved the inventory
discrepancies reported during the 2008 annual investigative equipment inventory. The report
also highlighted that significant control weaknesses at CI Division HQ contributed to the
inability to account for investigative equipment. Many of the findings and recommendations
outlined in the March 2009 report are repeat findings reflected in our FY 2005 report.
This review was performed at the CI Division HQ, STO section,5 in Washington, D.C.; the
warehouse in Forestville, Maryland;6 and the CI Division field office post of duty locations in
Atlanta, Georgia; Baltimore, Maryland; and Newark, New Jersey, during the period February
through July 2010. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained provides a

2
  In January 2010, the CI Division raised the dollar criteria to $900. Because we selected our samples using data as
of October 2009, we did not conduct any tests to determine how this new criteria was implemented.
3
  Weaknesses in the Criminal Investigation Function’s Controls Leave Investigative Equipment Vulnerable to Loss
(Reference Number 2005-10-163, dated September 30, 2005).
4
  The original report contained 15 recommendations; however, CI Division management did not implement our
recommendation pertaining to bar coding, stating it was not feasible.
5
  We performed fieldwork at the warehouse and STO section. Unless otherwise noted, reference made in this report
to the CI Division HQ office reflects the results of our fieldwork at these two locations.
6
  The CI Division HQ office maintains most of its radios in this warehouse location.
                                                                                                            Page 2
                       Weaknesses Continue to Exist in the Controls Over
                                  Investigative Equipment



reasonable basis for our findings and conclusions based on our audit objectives. Detailed
information on our audit objectives, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                        Page 3
                        Weaknesses Continue to Exist in the Controls Over
                                   Investigative Equipment




                                Results of Review

While Some Controls Over Investigative Equipment Have Improved
Since Our Last Review, Repeat Findings Still Exist
The results of this review determined that the CI Division has taken corrective action on
8 (57 percent) of the 14 recommendations made in our September 2005 audit report. For
example, in our prior report, we identified that investigative equipment at the CI Division HQ
warehouse was haphazardly stored in multiple locations throughout the facility, and some items
were obscured from our review. In addition, duplicate badges and pocket commission inserts
purchased by CI Division personnel were not properly controlled. Our observations during this
review showed the warehouse was more organized and a schematic has been developed to note
the location of investigative equipment. Further, CI Division personnel created a master log for
all pocket commissions, stored unassigned pocket commissions in a locked safe, and provided
detailed instructions for assigning and recording pocket commissions in the CIMIS.
However, we determined that 6 of the 14 recommendations remain incomplete because the CI
Division did not take, or fully implement, the agreed to corrective actions. Specifically, CI
Division management agreed to establish procedures for reviewing disposed investigative
equipment documentation to ensure it is complete and accurate; however, this documentation
continues to be incomplete. In addition, CI Division management agreed to implement a process
for periodically reviewing CIMIS user permissions, and we determined these reviews do not
exist. In addition, CI management did not:
   •   Properly conduct the annual inventory reviews of the investigative equipment.
   •   Update the CIMIS to include all purchases of investigative equipment.
   •   Conduct required security reviews.
   •   Restrict access to investigative equipment to only authorized personnel.
By not completing the corrective actions from our prior report, the CI Division accepted the risk
that existing internal controls over investigative equipment were not being adhered to and that
the inventory data in the CIMIS cannot be relied upon to make decisions regarding new
purchases. The results from this review indicate CI Division management needs to take
additional steps to strengthen internal controls over investigative equipment.




                                                                                           Page 4
                             Weaknesses Continue to Exist in the Controls Over
                                        Investigative Equipment



Weaknesses Continue to Create an Environment Where Investigative
Equipment Is Vulnerable to Loss
Our review identified several conditions that attributed to the CI Division’s inability to maintain
effective controls over its investigative equipment. As part of our testing to arrive at this
conclusion, we visited the CI Division HQ7 and three field offices and physically verified
investigative equipment items controlled in the CIMIS (i.e., referred to as book-to-floor testing).
We judgmentally selected a sample of 265 investigative equipment items, including 31 weapons,
from a population of 6,951 items recorded in the CIMIS. We accounted for all the weapons but
could not locate or find proper support for 23 (8.7 percent) of the items valued at $82,326.
Further analysis of inventory records showed that 11 (of the 23) items could not be located
because they had been disposed of without adequate documentation to support the disposal.
We also judgmentally selected a sample of 128 investigative equipment items located in the
offices to verify if these items were controlled in the CIMIS (i.e., referred to as floor-to-book
testing). Our results showed 23 (18 percent) items valued at an estimated $48,888 were not
controlled in the CIMIS. Nine of these items were in the process of being disposed.
In addition, the CI Division’s independent review and reconciliation of its HQ investigative
equipment inventory identified similar deficiencies. The review noted that personnel could not
physically locate 190 items. The review team later determined these items were lost as a result
of the June 2006 flood of the Internal Revenue Service HQ building or were items that could not
be located during prior inventory reviews. The review team also identified 508 items that were
not controlled in the CIMIS, as required.

The CI Division continues to improperly conduct the annual inventory
We reviewed the annual inventory procedures and determined CI offices did not always conduct,
or properly conduct, the investigative equipment inventories. Specifically,
      •    Two offices certified that a 100 percent inventory had been completed for FY 2009.
           However, there was no evidence that training equipment, maintained by one office, was
           included in the physical verification or that investigative equipment assigned to a special
           agent serving on a detail was verified.
      •    One office reported the same discrepancies during the FYs 2008 and 2009 annual
           inventory verifications which indicate the discrepancies had not been corrected from the
           prior year.
      •    One office did not complete an annual inventory during FY 2007.



7
    We selected equipment assigned to the STO section and warehouse.
                                                                                                Page 5
                            Weaknesses Continue to Exist in the Controls Over
                                       Investigative Equipment



We also determined that CI Division personnel were not updating the CIMIS to document the
date inventory items were last verified. Our analysis of the CIMIS identified 20,516
(46.7 percent) of the 43,965 investigative equipment items had a last verification date of 2007 or
earlier. According to the CIMIS Data Dictionary, the last verification date should reflect the
year when the latest physical inspection of the investigative equipment item was completed.
However, the equipment coordinators we interviewed did not know about this requirement or
updated the CIMIS only when investigative equipment was transferred to another office or
special agent.
The Criminal Investigation Equipment Management Procedures requires that equipment
coordinators ensure an annual, 100 percent inventory review is conducted of all investigative
equipment tracked in the CIMIS.8 This assessment includes identifying investigative equipment,
in storage or office areas, valued at $500 or greater that is not already recorded in the CIMIS. At
the conclusion of the inventory review, the coordinator will update the CIMIS with any
corrections identified by the inventory review team.
The CI Division annual inventory procedures require the use of the Storage Responsibility for
Government Property Report (Standard EQR 02). This report identifies the investigative
equipment by storage area and cannot be manipulated. However, this report is not organized in
any specific order which makes it difficult for the person conducting the inventory to determine
which items can be accounted for and which are missing from the inventory. During our visits,
we determined that most of the offices stored the equipment by type (i.e., all recorders in one
area). We believe modifying the CIMIS reports generated for the common storage areas to sort
the data by equipment type may help facilitate the verification of equipment and identification of
items that should be controlled on the CIMIS.
In March 2010, we advised the Director, STO, of our interim results and recommended the CI
Division discuss our results during the April 2010 continuing professional education seminar for
the CIMIS equipment coordinators. We believed the timing of this training provided a good
opportunity to advise the equipment coordinators about the weaknesses we identified. The CI
Division agreed and the continuing professional education training materials we reviewed
reiterated the roles and responsibilities of equipment coordinators and included practical
classroom exercises to help reinforce key concepts regarding controls over investigative
equipment. CI Division personnel also indicated the Internal Revenue Manual would be
modified with guidelines on updating the last verification date field in the CIMIS starting with
the FY 2010 inventory. However, as of October 2010, these guidelines had not yet been
incorporated.


8
  CI Division personnel utilize reports generated from the CIMIS to perform the annual inventory. These reports
include Custody Receipt for Government Property (EQR 01), Storage Responsibility for Government Property
(EQR 02), Equipment Checked Out on Temporary Custody (EQR 07), and Equipment Checked Into Temporary
Custody (EQR 08).
                                                                                                           Page 6
                        Weaknesses Continue to Exist in the Controls Over
                                   Investigative Equipment



While the continuing professional education seminar helped CIMIS equipment coordinators
better understand their responsibilities, CI Division management needs to take additional steps to
ensure CI Division personnel follow existing procedures. Otherwise, investigative equipment
will continue to be at risk of loss and CI Division personnel will be unable to rely on data within
the CIMIS to make business decisions.

The CI Division did not maintain complete documentation to support investigative
equipment disposal transactions
Our results continue to show that the internal controls over the disposal of investigative
equipment (which includes items reported as lost, stolen, damaged, or no longer useful) need
strengthening. The CI Division either did not have supporting documentation or the
documentation was incomplete for 31 (57.4 percent) of the 54 investigative equipment items
reported as disposed. For example, the documentation did not contain the required approval
signatures or a recommendation of financial liability. We also reviewed documentation for
seven weapons reported as lost or stolen since 2005 for all CI field offices. One of the seven
weapons selected had complete documentation; however, our review of records for the
remaining six weapons showed:
   •   In one instance, CI Division management could not provide supporting documentation to
       account for the weapon.
   •   In five instances, the documentation was incomplete including that the determination for
       financial liability was not made. For one of the weapons, there was no Report of Survey
       (Form 1933) prepared to report the weapon lost or stolen. For two of these weapons,
       there was a note in the file stating that a determination of liability would not be made
       until after the Treasury Inspector General for Tax Administration (TIGTA) Office of
       Investigations completed its investigation. We confirmed with the TIGTA Office of
       Investigations that these investigations had been closed; however, there was no followup
       by the CI Division to ensure the determinations were completed. For another 2 instances,
       documentation was either not prepared or not completed until almost 2 years after the
       weapon was reported missing.
The Criminal Investigation Equipment Management Procedures state any time investigative
equipment is lost, stolen, or damaged, a memorandum documenting the circumstances of the loss
is to be prepared by the individual assigned the investigative equipment. This memorandum is
then forwarded to the employee’s supervisor who determines if the loss was due to negligence.
A Form 1933 must also be prepared to report investigative equipment that is lost or stolen. All
approved Forms 1933 must be forwarded to the Director, STO, as part of the annual inventory
process. In addition, the TIGTA Office of Investigations must be contacted whenever a weapon,
badge, or pocket commission is reported as lost or stolen. The TIGTA Office of Investigations
will complete an investigation to determine if there was employee misconduct and whether
disciplinary action is necessary.

                                                                                            Page 7
                        Weaknesses Continue to Exist in the Controls Over
                                   Investigative Equipment



The Standards for Internal Control in the Federal Government requires that all transactions be
authorized, clearly documented, and readily available for examination. Control activities, such
as reviewing supporting documentation, help ensure the completeness and accuracy of all
transactions. Investigative equipment recorded as disposed of in the CIMIS without proper
supporting documentation could be an indication of an unauthorized alteration.

Reviews are not being performed on access permissions to the investigative
equipment module within the CIMIS
Our review found that the CI Division has taken steps to ensure an adequate separation of duties
for CI Division personnel conducting the annual inventory. However, the CI Division did not
complete planned corrective actions to perform quarterly reviews to ensure only authorized CI
Division personnel have access to the investigative equipment module in the CIMIS. For
example, in one office visited, CI Division personnel continued to have access authority to the
CIMIS investigative equipment module even though their current positions no longer require this
access.
According to the Government Accountability Office Standards for Internal Control in the
Federal Government, key duties and responsibilities need to be divided or separated among
different people to reduce the risk of error or fraud. This delineation should include separating
the responsibilities for authorizing transactions, processing and recording transactions, reviewing
transactions, and handling any related assets. In addition, access to resources and records should
be limited to authorized individuals, and periodic review of employee accesses should be made
to help reduce the risk of errors, fraud, misuse, or unauthorized alteration.
If CI Division management does not ensure the proper completion of periodic reviews of user
permissions for CI Division personnel with investigative equipment responsibilities, the risk of
fraud or error increases.

Recommendations
The Chief, CI Division, should:
Recommendation 1: Finalize the Internal Revenue Manual and the Criminal Investigation
Equipment Management Procedures and instructions to ensure employees are aware of the
requirement to update the CIMIS with the last date the investigative equipment items were
verified during the annual inventory process.
       Management’s Response: IRS management agreed with the recommendation.
       Internal Revenue Manual sections regarding annual physical inventory will be updated to
       emphasize the requirement to update the CIMIS with the date that the investigative
       equipment items were verified during the inventory process. The Criminal Investigation
       Equipment Management Procedures handbook will also include specific emphasis on the
       requirement that each equipment record be updated for every investigative equipment
                                                                                            Page 8
                        Weaknesses Continue to Exist in the Controls Over
                                   Investigative Equipment



       item that was verified during the physical inventory process. In addition, a suggestion for
       enhancement to the CIMIS has been submitted to the CI Division Technology Operations
       and Investigative Services office for approval, design, and eventual implementation that
       will create a new report to identify the last date the investigative equipment items tracked
       in the CIMIS were verified.
Recommendation 2: Modify the CIMIS-generated reports to sort the investigative equipment
items (e.g., by category, manufacturer, and model) to facilitate the storage area inventory
process. Because the investigative equipment in the storage areas are grouped by like items, a
sorted report can provide a more efficient inventory process and help identify items that should
be recorded in the CIMIS.
       Management’s Response: IRS management agreed with this recommendation. A
       suggestion for enhancement to the CIMIS has been submitted to the CI Division
       Technology Operations and Investigative Services office for approval, design, and
       eventual implementation. This enhancement will change the storage inventory report to
       be sorted by manufacturer, model, and category to increase the efficiency of the
       inventory process.
Recommendation 3: Ensure the Director, STO, and the Director, Field Operations, review all
documentation relating to investigative equipment disposals for accuracy and completeness.
When documentation is incomplete, the documentation should be rejected and returned to the
initiating office for corrective action. In addition, followup action should be taken to ensure the
documentation is returned to the Director, STO, or the Director, Field Operations.
       Management’s Response: IRS management partially agreed with the
       recommendation. The CI Division Director, Field Operations, and/or Special Agent in
       Charge currently review all documentation relating to investigative equipment disposals
       for accuracy and completeness, and reject and return to the initiating office for corrective
       action when documentation is incomplete. Investigative equipment disposal logs and/or
       documentation are forwarded to the Director, STO, annually as part of the annual
       Physical Investigative Equipment Certification. In addition, each Director, Field
       Operations, will be responsible for maintaining a Form 1933 tracking system.
       Office of Audit Comment: The IRS stated field offices currently review all
       documentation related to investigative equipment disposals for accuracy and
       completeness and the Director of Field Operations will track Form 1933. However, we
       continue to believe the internal controls over the disposal of investigative equipment need
       strengthening. The results of our review showed that the CI Division either did not have
       supporting documentation or the documentation was incomplete for 31 (57.4 percent) of
       the 54 investigative equipment items reported as disposed. The lack of documentation or
       incomplete documentation for more than one-half of the items in our sample supports our
       conclusion that the current procedures are not adequate.

                                                                                            Page 9
                           Weaknesses Continue to Exist in the Controls Over
                                      Investigative Equipment



Recommendation 4: Ensure the Director, STO, establishes procedures to periodically review
the permissions of users with access to the investigative equipment application of the CIMIS to
ensure they are accurate.
        Management’s Response: IRS management partially agreed with this
        recommendation. The review of CIMIS user permissions is the responsibility of each
        field office and HQ Director. The CI Division conducts certifications of all user profiles
        to include permissions of users with access to the CIMIS on an annual basis. Area
        Subject Matter Experts will be informed and required to review annual certifications to
        ensure user permissions are correct.
        Office of Audit Comment: We are encouraged that Area Subject Matter Experts will
        review annual certifications to ensure the CIMIS user permissions are correct. However,
        we continue to believe that annually reviewing permissions is not adequate to ensure only
        authorized users have access to the CIMIS. The results of our review showed that some
        CI Division personnel continued to have access authority to the CIMIS investigative
        equipment module even though their current positions no longer required this access.

The Criminal Investigation Management Information System Is
Inaccurate and Incomplete
Although the CI Division established procedures to ensure the accuracy of investigative
equipment records within the CIMIS, procedures are not being followed. As a result, the CIMIS
contains incomplete and inaccurate information. For example, we selected a judgmental sample
of 49 equipment items from 1,799 items purchased9 by the 4 offices we visited. We obtained
purchase order documentation for these 49 items and determined 5 of the 49 contained
discrepancies. A total of 462 items were purchased using the procurement documentation for the
5 purchases with discrepancies.10 We researched the CIMIS for the 462 items and could not
locate 125 (27 percent). The acquisition costs for these items totaled $88,485. These items
represent a potential risk of theft or loss because they are not controlled in the CIMIS and would
not be included in the annual inventory process.
The CI Division also uses the CIMIS to monitor investigative equipment items in a pending
status (i.e., a pending purchase or disposal). The Criminal Investigation Equipment Management
Procedures state equipment coordinators should check for pending items twice a month and
report all discrepancies after 60 days. Our analysis of the CIMIS identified that, of the
628 investigative equipment items still in a pending order status for all CI offices,

9
  We reviewed purchases made by the CI Division HQ during FYs 2006 through 2007 (to account for items that may
have been purchased after the June 2006 flood) and reviewed the most recent purchases made by the CI Division
HQ and field offices during FY 2009.
10
   For example, our sample included a global positioning system. The procurement documentation indicated a total
of eight units were purchased; however, our review of the CIMIS could only locate six units.
                                                                                                       Page 10
                               Weaknesses Continue to Exist in the Controls Over
                                          Investigative Equipment



230 (36.6 percent) were ordered between Calendar Years 2005 and 2008. According to CI
Division procedures, upon receipt of the investigative equipment in an office, the equipment
coordinators should “accept” the items in the CIMIS by recording the serial number, receipt date,
and physical location of the item. However, CI Division personnel advised that some offices
created a new entry in the CIMIS to record investigative equipment purchases, rather than
“accepting” the item. When this procedural deviation occurs, the CI Division is at risk of
creating duplicate records and overstating the inventory in the CIMIS.
We also identified 183 investigative equipment items for all CI Division offices in a pending
disposal status as of October 15, 2009. Our analyses showed 26 of these items were placed in
this status during Calendar Years 2002 through 2005. When the CI Division initiates the process
to dispose of investigative equipment within the CIMIS, the item is considered in pending
disposal status until a disposal date is input into the System. According to CI Division HQ
management, these records were not updated when the conversion from the old inventory system
to the CIMIS took place in April 2005. In addition, for one of the field offices we visited, we
identified 49 investigative equipment items documented in the CIMIS as pending disposal status.
Further review showed the items had already been destroyed, but CI Division personnel did not
update the CIMIS to reflect the items were no longer in active inventory.

The CI Division should strategically assess its investigative equipment inventory
and remove outdated investigative equipment items
Our analysis of the CIMIS identified 17,093 (39 percent) of the 43,965 active investigative
equipment items were purchased 6 or more years ago.11 According to the Internal Revenue
Manual, the useful life (the period during which the asset provides benefits) for investigative
equipment is 6 years. Figure 2 shows the number of investigative equipment items and the year
the investigative equipment was acquired.




11
     Examples of these items include video cassette recorders, pagers, and tape cassette recorders.
                                                                                                      Page 11
                        Weaknesses Continue to Exist in the Controls Over
                                   Investigative Equipment



          Figure 2: Investigative Equipment Inventory by Acquisition Year

                                                                 Number of
                                  Year of                       Investigative
                                Acquisition                   Equipment Items
                                1950 to 1990                               1,177
                                1991 to 2000                                   10,836
                                2001 to 2003                                    5,080
                                2004 to 2009                                   26,872
                                    Total                                      43,965
                   Source: Our analysis of the CIMIS as of October 15, 2009.

While the CI Division maintains older items for investigative and historical purposes
(***************1, 3(a)**********), we believe it has an opportunity to strategically assess its
investigative equipment inventory and remove items that are beyond the useful life and no longer
needed. If the CI Division determined these items were no longer useful and removed them from
its active inventory, the annual inventory process would be more efficient because fewer items
would need to be physically verified in the future.

Recommendations
The Chief, CI Division, should:
Recommendation 5: Create a report to identify the investigative equipment inventory in a
pending status for more than 60 days and provide this report to the Director, STO, to ensure the
CIMIS is updated.
       Management’s Response: IRS management agreed with this recommendation. A
       suggestion for enhancement to the CIMIS has been submitted for approval, design, and
       eventual implementation to the CI Division Technology Operations and Investigative
       Services office. This enhancement will create a new report that will provide the Director,
       STO, maximum flexibility to determine which items require updating in the CIMIS and
       identify the investigative equipment inventory in pending “ordered” status for any
       specified length of time.
Recommendation 6: Analyze the CIMIS investigative equipment data to identify obsolete
items and provide specific instructions to the field offices to properly document the removal of
this investigative equipment from the CIMIS.
       Management’s Response: IRS management agreed with this recommendation. The
       CI Division has already begun the process of identifying potentially obsolete equipment
       items for further analysis and disposal where appropriate. Special ad hoc reports
                                                                                          Page 12
                        Weaknesses Continue to Exist in the Controls Over
                                   Investigative Equipment



       accompanied by specific instructions regarding the disposition of obsolete items will be
       provided by HQ to the field offices annually for review to reduce unneeded inventory.

Physical Security Controls Need to Be Reemphasized
In our prior review, we reported that the CI Division did not restrict access to investigative
equipment storage areas to only those individuals with responsibility for maintaining the
investigative equipment. During this review, we visited three field offices and determined that
controls were not in place to ensure only those individuals with a need had access to
investigative equipment. For example, in two field offices, we identified CI Division personnel
who did not have a business reason for having access to the investigative equipment storage
room. In the remaining field office, we could not readily determine who had access to the
weapons or tech equipment storage areas because the computer system maintaining the records
was outdated and could not be accessed.
CI Division management advised that because of Homeland Security Presidential Directive 12,
separate entry access systems (such as the one referenced in the prior paragraph) will eventually
become obsolete. As a result, the Internal Revenue Service will not provide funding to upgrade
or replace these systems. Instead, the Internal Revenue Service Physical Security and
Emergency Preparedness office is working to fully implement the Directive to provide a special
identification card used by employees to gain and monitor access to facilities and storage areas.
Further, we could not find evidence that functional security reviews were performed at the
offices in our review. This condition also existed in our prior review. When properly conducted,
functional security reviews will help ensure security standards are met. In addition, according to
the Standards for Internal Control in the Federal Government, an agency must establish physical
control to secure and safeguard assets. Access to resources and records should be limited to
authorized individuals, and accountability for their custody and use should be assigned and
maintained. If access to investigative equipment is not restricted and security reviews are not
completed, investigative equipment is vulnerable to risk of loss, theft, or unauthorized use.

Recommendations
Recommendation 7: Until Homeland Security Presidential Directive 12 is fully
implemented, the Chief, CI Division, should initiate a manual process in those field offices
where computer systems cannot be upgraded to help maintain the records of CI Division
personnel who have access to investigative equipment items.
       Management’s Response: IRS management agreed with this recommendation. The
       Director, Operations, will issue a memorandum to all Special Agents in Charge
       reminding all personnel of the necessity to control access to investigative equipment.
       Each Special Agent in Charge will ensure an access control log/sign out sheet is utilized
       by the office.
                                                                                          Page 13
                       Weaknesses Continue to Exist in the Controls Over
                                  Investigative Equipment



Recommendation 8: The Chief, CI Division, should establish procedures to ensure the CI
Division completes annual functional security reviews of investigative equipment and weapons
storage areas. This includes reviewing access lists to ensure only authorized CI Division
personnel have access to investigative equipment.
       Management’s Response: IRS management disagreed with this recommendation.
       All CI Division managers, as part of the Annual Assurance Review, must certify
       compliance with Internal Revenue Manual sections regarding security requirements and
       responsibilities as well as Internal Revenue Manual sections concerning investigative
       property requirements. Controls over investigative equipment require a constant balance
       of security of the equipment with the accessibility of equipment to field personnel to
       successfully complete CI Division’s mission. In addition, CI Division office space in
       general is restricted to CI Division personnel unlike other IRS operating divisions. Each
       Special Agent in Charge will ensure an access control log/sign out sheet is utilized by the
       office and access to equipment is controlled as appropriate.
       Office of Audit Comment: Requiring each Special Agent in Charge to ensure access
       control log/sign out sheets are utilized will provide some assurance that access to
       equipment is controlled. However, we continue to believe that current procedures are not
       adequate because we could not find evidence that functional security reviews were
       performed at the offices visited during our review. When properly conducted, functional
       security reviews will help ensure security standards are met.




                                                                                          Page 14
                           Weaknesses Continue to Exist in the Controls Over
                                      Investigative Equipment



                                                                                               Appendix I

        Detailed Objectives, Scope, and Methodology

The overall objective of this review was to determine whether controls and procedures were
effective to ensure investigative equipment1 is adequately safeguarded against waste and loss. In
addition, we determined whether the agreed to corrective actions from our prior report were
implemented. In prior audits, our overall assessment has been that the CIMIS data are of
undetermined reliability. However, one of the purposes of this audit was to verify the accuracy
of the investigative equipment data maintained in the system. In our opinion, using the data from
the CIMIS did not weaken our analyses. To accomplish our objectives, we:
I.      Evaluated and discussed procedures for ensuring unassigned investigative equipment
        were adequately stored and safeguarded.
II.     Evaluated policies and procedures to ensure investigative equipment duties were
        adequately separated. We also reviewed the permissions of CI Division personnel with
        access to the CIMIS.
III.    Determined whether the inventory of investigative equipment is adequately controlled by
        the CI Division on its CIMIS.
        A. Analyzed the CIMIS as of October 15, 2009, and identified 43,965 investigative
           equipment items with an acquisition cost of approximately $126 million. We also
           reviewed records of investigative equipment that was in a disposed status per the
           CIMIS (which includes items reported as lost, stolen, damaged, or no longer useful).
           The CI Division HQ offices in Washington, D.C., and Forestville, Maryland,2 and the
           CI Division field office post of duty locations in Atlanta, Georgia;
           Baltimore, Maryland; and Newark, New Jersey, were judgmentally selected based
           upon factors such as the total number and cost of investigative equipment currently
           assigned to each office, the total number of items reported as lost or stolen during
           Calendar Years 2007 and 2008, and the total number of items with a pending disposal
           status. We used judgmental sampling because we determined statistical sampling
           techniques would have been cost prohibitive and we did not plan to project our results
           to the entire population.




1
  See Appendix VI for a glossary of terms.
2
  We performed fieldwork at the warehouse and STO section. Unless otherwise noted, reference made in this report
to the CI Division HQ office reflects the results of our fieldwork at these two locations.
                                                                                                       Page 15
                           Weaknesses Continue to Exist in the Controls Over
                                      Investigative Equipment



        B. Conducted a physical verification of investigative equipment items, excluding
           vehicles, listed in the CIMIS and assigned to the four offices in our review as of
           October 15, 2009.
            1. Analyzed all active inventory records in the CIMIS as of October 15, 2009, and
               identified investigative equipment from the following categories: Weapons
               (Category Number 1), Audio (2), Video (3), Photographic (4),
               Telecommunication (6), Optical (7), Radio (11), Tracking (12), and select
               subcategories from Miscellaneous Investigative Equipment (8).
            2. Judgmentally selected 265 investigative equipment items assigned to the CI
               Division HQ and 3 field offices. We used judgmental sampling because we
               determined statistical sampling techniques would have been cost prohibitive and
               we did not plan to project our results to the entire population.
            3. Physically verified 242 of the 265 investigative equipment items at the 4 offices.
        C. Evaluated each office’s inventory procedures and determined whether an annual
           inventory of investigative equipment was properly performed in FY 2009.
        D. Selected a judgmental sample of 49 equipment items from 1,799 items purchased3 by
           the 4 offices we visited. We obtained purchase order documentation for the 49 items
           and determined 5 of the 49 contained discrepancies. A total of 462 items were
           purchased using the procurement documentation for the 5 purchases with
           discrepancies.4 We researched the CIMIS for the 462 items and could not locate 125
           (27 percent). The acquisition costs for these items totaled $88,485.
        E. Selected a judgmental sample of 54 investigative equipment items, including
           weapons, that were listed in the CIMIS as disposed (which includes items reported as
           lost, stolen, damaged, or no longer useful). We used judgmental sampling because
           we determined statistical sampling techniques would have been cost prohibitive and
           we did not plan to project our results to the entire population.
        F. Judgmentally selected from the “floor” a total of 128 investigative equipment items
           from the 4 offices and determined whether the investigative equipment was properly
           controlled in the CIMIS. We used judgmental sampling because we could not
           determine the population of all investigative equipment items in these offices.



3
  We reviewed purchases made by the CI Division HQ during FYs 2006 through 2007 (to account for items that may
have been purchased after the June 2006 flood) and reviewed the most recent purchases made by the CI Division
HQ and field offices during FY 2009.
4
  For example, our sample included a global positioning system. The procurement documentation indicated a total
of eight units were purchased; however, our review of the CIMIS could only locate six units.
                                                                                                      Page 16
                        Weaknesses Continue to Exist in the Controls Over
                                   Investigative Equipment



Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: CI Division’s policies, procedures, and
practices relating to accounting for and controlling its investigative equipment. We evaluated
these controls by interviewing CI Division equipment coordinators, reviewing the annual
inventory procedures, physically verifying investigative equipment, and tracing investigative
equipment purchases to ensure they were recorded in the CIMIS.




                                                                                         Page 17
                      Weaknesses Continue to Exist in the Controls Over
                                 Investigative Equipment



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank W. Jones, Director
Diana M. Tengesdal, Audit Manager
Janice A. Murphy, Lead Auditor
Margaret F. Filippelli, Senior Auditor
Chanda L. Stratton, Auditor




                                                                                      Page 18
                      Weaknesses Continue to Exist in the Controls Over
                                 Investigative Equipment



                                                                            Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Director, Operations Policy and Support, Criminal Investigation Division SE:CI:OPS
Director, Strategy, Criminal Investigation Division SE:CI:S
Director, Security and Technical Operations, Criminal Investigation Division SE:CI:OPS:STO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Criminal Investigation Division SE:CI




                                                                                    Page 19
                              Weaknesses Continue to Exist in the Controls Over
                                         Investigative Equipment



                                                                                   Appendix IV

                                      Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to the Congress.

Type and Value of Outcome Measure:
•     Protection of Resources – Actual; 46 investigative equipment items costing $131,214 that
      could not be located or positively identified or were not controlled in the CIMIS1
      (see page 5).

Methodology Used to Measure the Reported Benefit:
      •    We judgmentally selected 265 investigative equipment items from the CIMIS, including
           31 weapons, to physically verify. We could not locate or find support for 23 items.
           These items had an acquisition cost of $82,326.
      •    We judgmentally selected 128 investigative equipment items to determine if the items
           were properly controlled in the CIMIS. We identified 23 items that were not controlled
           in the CIMIS, as required. These items had an acquisition cost estimated at $48,888.

Type and Value of Outcome Measure:
•     Reliability of Information – Actual; 20,795 investigative equipment items that either did not
      have a current inventory verification date or had been disposed but remained in active
      inventory (see page 5 and 10).

Methodology Used to Measure the Reported Benefit:
Our analysis of the CIMIS identified 20,516 (46.7 percent) of the 43,965 investigative equipment
items had a last verification date of 2007 or earlier. Also, during our visit to one field office, we
identified 49 items in its inventory were scheduled for disposal. However, CI Division
management could not provide us with any documentation to support the disposal action was
approved. We determined the items were destroyed but were not removed from the active
inventory as required.



1
    See Appendix VI for a glossary of terms.
                                                                                            Page 20
                           Weaknesses Continue to Exist in the Controls Over
                                      Investigative Equipment



We also analyzed the CIMIS investigative equipment data and identified that of the 628
investigative items still in a pending order status for all CI offices, 230 (36.6 percent) were
ordered between Calendar Years 2005 and 2008. We were advised that instead of “accepting”
the item in the CIMIS, some field offices created a new entry to record the investigative
equipment. When this procedural deviation occurs, the CI Division is at risk of creating
duplicate records and overstating the inventory in the CIMIS.

Type and Value of Outcome Measure:
•   Protection of Resources – Actual; 125 investigative equipment items costing $88,485 that
    were purchased by the CI Division during FYs 2006, 2007, and 2009 but not controlled in the
    CIMIS, as required (see page 10).

Methodology Used to Measure the Reported Benefit:
We selected a judgmental sample of 49 equipment items from 1,799 items purchased2 by the four
offices we visited. Our review of purchase order documentation for these 49 items determined
5 of the 49 contained discrepancies. A total of 462 items were purchased using the procurement
documentation for the 5 items with discrepancies.3 We researched the CIMIS for the 462 items
and could not locate 125 (27 percent). The acquisition costs for these items totaled $88,485.




2
  We reviewed purchases made by the CI Division HQ during FYs 2006 through 2007 (to account for items that may
have been purchased after the June 2006 flood) and reviewed the most recent purchases made by the CI Division
HQ and field offices during FY 2009.
3
  For example, our sample included a Global Positioning System. The procurement documentation indicated a total
of eight units were purchased; however, our review of the CIMIS could only locate six units.
                                                                                                      Page 21
                              Weaknesses Continue to Exist in the Controls Over
                                         Investigative Equipment



                                                                                                    Appendix V

          Status of Recommendations From the
    September 2005 Treasury Inspector General for Tax
                  Administration Report

                                             CI Division Response and
      Recommendation                                                                             Current Status
                                                Corrective Action
1 - Issue a memorandum to           Management agreed stating the results of our      Implemented. In addition to the
applicable CI Division personnel    audit were discussed and inventory                discussions held at the Special Agent In
reemphasizing the importance of     procedures reemphasized to the Special            Charge meeting, a memorandum was
independently verifying all         Agents in Charge and Assistant Special            issued in January 2006 clarifying the
equipment during the annual         Agents in Charge.                                 roles and responsibilities of CI Division
inventory.                                                                            personnel.
2 - Establish procedures            Management agreed and was to revise the           Incomplete. The CI Division Internal
requiring each office to submit     Property Management Handbook                      Revenue Manual has not been updated
the primary reconciliation                                                            to reflect the current procedures, and the
document used during the                                                              Equipment Management Procedures
inventory process along with the                                                      with revisions has not been issued in
memorandum that is submitted                                                          final. As a result, we believe weak
to the Director, Equipment and                                                        internal controls continue to exist in the
Technology Evaluation.                                                                annual inventory process.
3 - Consider whether the use of     Management agreed stating a bar coding            We did not address this in our current
bar coding would be an effective    system would be reviewed; however,                review.
method of controlling the CI        management later advised the system is not
Division’s investigative            possible due to the inability to integrate data
equipment.1                         from the bar coding system into the CIMIS.
4 - Establish procedures to         Management agreed and will determine the          Incomplete. Reviews have not been
periodically review the             appropriate level and frequency of the            conducted on a quarterly basis, and no
permissions of those users with     reviews of the CIMIS roles and permissions.       CIMIS report exists that would assist
access to the investigative         Management later advised the reviews would        area analysts in conducting a review of
equipment application of the        be conducted by area analysts on a quarterly      CIMIS user permissions.
CIMIS to ensure they have           basis beginning in April 2006.
read-only access.




1
    See Appendix VI for glossary of terms.
                                                                                                              Page 22
                              Weaknesses Continue to Exist in the Controls Over
                                         Investigative Equipment




                                          CI Division Response and
     Recommendation                                                                           Current Status
                                             Corrective Action
5 - Establish monitoring            Management agreed and will review all          Incomplete. Supporting documentation
procedures to require the review    reports of survey and supporting               was incomplete for investigative
of supporting documentation to      documentation beyond the field level for       equipment being disposed from the
ensure all disposals are properly   completeness and accuracy.                     CIMIS because it was lost, stolen,
conducted and consider                                                             damaged, or no longer useful.
incorporating procedures
requiring each disposal to be
analyzed by an independent
person as part of the annual
inventory process.
6 - Ensure all pocket               Management agreed indicating new               Implemented. The new pocket
commissions are properly            enforcement commissions will be issued and     commissions are being properly
controlled in the CIMIS.            the prior revisions will be destroyed.         controlled in the CIMIS and detailed
                                                                                   instructions have been issued for
                                                                                   assigning and recording them in the
                                                                                   CIMIS. In addition, a master log for all
                                                                                   unassigned pocket commissions has
                                                                                   been established.
7 - Ensure all missing pocket       Management agreed indicating they will         Implemented. Procedures have been
commissions are referred to the     ensure all pocket commissions suspected of     established for referring pocket
TIGTA Office of Investigations.     loss and/or theft are reported to the TIGTA.   commissions suspected of loss and/or
                                                                                   theft to the TIGTA. In addition, our
                                                                                   review of documentation for six
                                                                                   identification media reported lost or
                                                                                   stolen indicated the TIGTA was
                                                                                   notified.
8 - Determine if the current        Management agreed and will issue uniquely      Implemented. Our review determined
supply of belt and enforcement      serial-numbered enforcement/belt badges        the new enforcement/belt badges were
badges is sufficient to provide     and will properly dispose of excess badges.    purchased and issued. In addition,
each special agent with a unique                                                   proper actions were taken to dispose of
belt and enforcement badge                                                         the old badges.
identification number.
9 - Establish procedures to         Management agreed and stated current           Incomplete. The CIMIS continues to
ensure all investigative            procedures require the Finance section to      be incomplete and inaccurate. Our
equipment purchased is properly     notify the Equipment and Technology            review of documentation for the
controlled in the CIMIS.            Evaluation section at the time the             purchases of investigative equipment
                                    investigative equipment is procured. In        showed that not all of the investigative
                                    addition, they were to evaluate the current    equipment ordered and received was
                                    procedures and determine if enhancements       being entered into the CIMIS.
                                    were needed.
10 - Resolve all instances where    Management agreed and stated they would        Implemented.
the serial numbers were changed     resolve the serial number changes identified
based on information provided       during the audit.
by the TIGTA during our
review.



                                                                                                           Page 23
                             Weaknesses Continue to Exist in the Controls Over
                                        Investigative Equipment




                                          CI Division Response and
     Recommendation                                                                            Current Status
                                             Corrective Action
11 - Establish procedures to        Management agreed and stated they would         Implemented. The CI Division has
ensure changes to serial number     review the issue of serial number changes       issued changes to the CIMIS criteria so
information in the CIMIS are        and update the necessary policies and           that the chance for a duplicate record
appropriate.                        procedures where appropriate.                   being input is limited. In addition,
                                                                                    procedures have been established to
                                                                                    limit the persons with the ability to
                                                                                    change serial numbers within the
                                                                                    CIMIS.
12 - Establish procedures to        Management agreed and stated they would         Implemented. While no report was
identify duplicate records in the   create a report to identify equipment records   established, the CI Division has
CIMIS. A report listing all items   containing exactly matching serial numbers.     enhanced the CIMIS so the record is
with duplicate serial numbers                                                       rejected if a duplicate serial number is
should be generated periodically                                                    entered.
and provided to the Director,
Equipment and Technology
Evaluation, for review.
13 - Establish procedures to        Management agreed and stated they would         Incomplete. We determined during our
ensure functional security          take the necessary steps to ensure functional   office visitations that functional security
reviews of investigative            security reviews of investigative equipment     reviews were not being conducted.
equipment and firearms storage      and firearms storage areas are conducted on
areas are conducted on an annual    an annual basis.
basis.
14 - Restrict access to             Management agreed to place renewed              Incomplete. We determined during our
investigative equipment storage     emphasis on restricting access to the           field office visitations that access to the
areas to only those personnel       investigative equipment to necessary            investigative equipment storage areas is
responsible for maintaining the     personnel only.                                 not restricted to only those personnel
equipment.                                                                          with a business reason.
15 - Establish procedures to        Management agreed stating they would            Implemented. Our review of the
ensure investigative equipment      review the operations of the warehouse          warehouse indicated a schema had been
assigned to the CI Division HQ      facility.                                       prepared and the CIMIS has been
offsite warehouse is effectively                                                    enhanced to capture a storage location.
stored. This should include the
use of a layout or schema to
document where equipment is
located at the site. The location
should then be noted in the
CIMIS database.




                                                                                                             Page 24
                       Weaknesses Continue to Exist in the Controls Over
                                  Investigative Equipment



                                                                                Appendix VI

                               Glossary of Terms

Criminal Investigative Management Information System (CIMIS) – A database that is used
by the CI Division to track the status and progress of investigations and the time expended by
special agents. In 2005, the CIMIS was enhanced to include the ability to track investigative
equipment for the CI Division. The CIMIS allows management to track where the equipment is,
to whom it is assigned, and to generate reports on the use of the equipment.
CIMIS Data Dictionary – A document identifying the data fields in the CIMIS and the business
description of each data field.
Field Office – Offices within the four CI Division geographical areas throughout the country
with boundaries that range from a portion of a single State to inter-State areas.
Homeland Security Presidential Directive 12 – This directive calls for a mandatory,
Government-wide standard for secure and reliable forms of identification issued by the Federal
Government to its employees and employees of Federal contractors for access to Federally
controlled facilities and networks.
Internal Revenue Code – The code is a codified collection of United States laws on income,
estate and gift, employment, and excise taxes, plus administrative and procedural provisions.
Investigative Equipment – Equipment required by the CI Division for carrying out its
investigative and enforcement responsibilities. Examples of equipment used by special agents
include fleet vehicles, radio communication equipment, weapons, body armor, electronic
surveillance equipment, night vision equipment, and optical equipment.
Miscellaneous Investigative Equipment Category – This category includes enforcement and
belt badges, pocket commissions, and fingerprint kits.
Pocket Commission – Special agent identification media consisting of a photograph and
sequentially numbered Certification for Authority.
Recommendation of Financial Liability – A determination made by management to impose
financial liability against an individual in the actual amount of the loss to the Federal
Government (the difference between the value of the property immediately before the loss, theft,
damage, or destruction and the value immediately after) when there is evidence of gross
negligence or willful disregard of the regulations.




                                                                                         Page 25
       Weaknesses Continue to Exist in the Controls Over
                  Investigative Equipment



                                                 Appendix VII

Management’s Response to the Draft Report




                                                           Page 26
Weaknesses Continue to Exist in the Controls Over
           Investigative Equipment




                                                    Page 27
Weaknesses Continue to Exist in the Controls Over
           Investigative Equipment




                                                    Page 28
Weaknesses Continue to Exist in the Controls Over
           Investigative Equipment




                                                    Page 29
Weaknesses Continue to Exist in the Controls Over
           Investigative Equipment




                                                    Page 30
Weaknesses Continue to Exist in the Controls Over
           Investigative Equipment




                                                    Page 31
